National Aeronautics and
Space Administration

Office of Inspector General
Washington, DC 20546-0001

                                             February 15, 2008

TO:             Director, Johnson Space Center

FROM:           Assistant Inspector General for Auditing

SUBJECT:        Final Memorandum on Review of a Shuttle Training Aircraft Mishap on
                October 19, 2007 (Report No. IG-08-009; Assignment No. S-08-006-00)


The Office of Inspector General (OIG) has completed a review of allegations made
concerning a Shuttle Training Aircraft mishap on October 19, 2007. Our review was
initiated in response to an anonymous complaint made on October 24, 2007. The
complainant alleged that actions taken by the instructor pilot, the aircrew, and the Agency
subsequent to the October 19 mishap at Kennedy Space Center (KSC), during which the
Shuttle Training Aircraft was damaged, were improper and raised potential safety
concerns. (See Enclosure 1 for details on our scope and methodology.)

Specifically, the complainant alleged that

    •   the instructor pilot and aircrew were aware of the damage to the aircraft but failed
        to report the damage in order to avoid mandatory mishap-related drug and alcohol
        testing;

    •   because of his age and history of aircraft mishaps, the instructor pilot is no longer
        capable of flying NASA aircraft safely; and

    •   some members of the mishap investigation board might not be sufficiently
        independent because the board was not formed in compliance with NASA
        regulations.

Executive Summary
We found that the actions taken by the instructor pilot and aircrew, with respect to reporting
the mishap, complied with NASA regulations. We also found that the instructor pilot was up
to date on all flight and medical certifications, was qualified and approved for duty as a Shuttle
Training Aircraft instructor, and had received an annual flight proficiency evaluation to ensure
that he had the ability to safely operate the aircraft.

We also found that the appointed chairperson of the mishap investigation board was an
employee in the same organization as the instructor pilot and, therefore, may not be
sufficiently independent to conduct an impartial assessment. NASA Procedural Requirements
(NPR) 8621.1B, “Mishap and Close Call Reporting, Investigating, and Recordkeeping,”
                                                                                                           2



May 23, 2006, requires that the chairperson of an investigating authority be independent of the
program or facility that experienced the mishap or close call and states that members should
not be from the direct chain of authority responsible for day-to-day or line management
oversight of the facility, area, or activity involved in the mishap.

Because the mishap aircraft and aircrew were assigned to the Johnson Space Center (JSC)
Aircraft Operations Division, the JSC Director has the authority to designate an investigation
of the mishap under the provisions of NPR 8621.1B. The NPR does not require investigation
by a mishap investigation board when the damage sustained as a result of the mishap is valued
at less than $250,000. However, the Center Director determined that a mishap investigation
board should investigate this mishap, as recommended by the JSC Chief of Aircraft
Operations and the JSC Chief of Aviation Safety, because of the mishap’s potential to have
been more serious.

Our January 22, 2008, draft of this memorandum recommended that the JSC Director appoint
a new chairperson, selected in compliance with NPR 8621.1B, to ensure that the board is
sufficiently independent to conduct an impartial assessment.

Management’s comments on the draft of this memorandum are responsive (see
Enclosure 2). Although the JSC Director nonconcurred with our recommendation, our
intent was to ensure that the mishap investigation board was sufficiently independent.
Management’s actions meet that intent. Therefore, we consider the recommendation
resolved and closed.

Background
On October 19, 2007, a NASA Shuttle Training Aircraft assigned to the JSC Aircraft
Operations Division clipped a tree while the pilot was attempting to land on the shuttle runway
at KSC during a rain shower. The aircraft sustained minor damage to the left outboard
wingtip, including a broken position light and strobe light. The aircrew members did not
perform a post-flight inspection of the aircraft, due in part to thunderstorms in the KSC area.
After landing the Shuttle Training Aircraft, the four aircrew members departed the airfield
before the damage was discovered. Three went to a local hotel, and one returned as scheduled
to Ellington Field, Texas, in a T-38.1 Approximately 3 hours after the aircraft landed at KSC,
maintenance personnel from JSC2 examined and discovered the damage, which they reported
to the JSC Aircraft Operations Division. The JSC Chief of Aircraft Operations and the JSC
Chief of Aviation Safety recommended that a mishap investigation board investigate the
mishap because of its potential to have been more serious. On November 13, 2007, the JSC
Director established the mishap investigation board, approved the members, and requested a
final report on the mishap by February 7, 2008.


1
    The astronaut trainee returned to Ellington Field; the instructor pilot was one of the three aircrew
    members who remained in the area.
2
    Maintenance personnel from JSC deploy with the Shuttle Training Aircraft for operations away from
    Ellington Field.
                                                                                                            3



Allegations
Allegation 1. The instructor pilot and aircrew were aware of the damage to the aircraft but
failed to report the damage in order to avoid mandatory mishap-related drug and alcohol
testing.

We found no indication that the instructor pilot or aircrew either knew of the damage to the
aircraft prior to its discovery by maintenance personnel or intentionally failed to report
damage to avoid mandatory testing.

The aircrew reported that the instructor pilot attempted to make the approach to land on the
KSC Shuttle runway prior to inclement weather moving into the area of the airfield.
However, as the aircraft approached the airfield, the weather caused the aircrew to lose sight
of the runway. The instructor pilot continued the approach using the aircraft’s instruments.
Upon regaining visual contact with the ground, the aircrew realized they were too low to
continue the approach. The instructor pilot added power and executed a climb into a holding
pattern. The aircraft landed at KSC after the tower advised the instructor pilot that the runway
had cleared of the weather.

The aircrew members stated they were not aware that the aircraft was damaged during the
flight or immediately after landing at KSC. However, after landing, several of the aircrew
independently approached the JSC Chief of Aviation Safety, who had deployed to KSC,
reporting what they perceived as a close call. According to the KSC Daily Record of Facility
Operations log, a Phase II Lightning Warning3 was issued approximately 20 minutes prior to
the aircraft landing at KSC. Aircrew members stated that the warning prevented them and
maintenance personnel from being on the tarmac immediately following the landing. In
addition, maintenance personnel were occupied with another aircraft that had landed
immediately after the Shuttle Training Aircraft. Airfield tower personnel reported seeing
sparks emanating from the second aircraft upon landing and called for a crash and fire rescue
response.4 Subsequently, maintenance action was required to remove that second aircraft
from the runway.

As a result, JSC and contract maintenance personnel at KSC did not discover the damage to
the Shuttle Training Aircraft until approximately 3 hours after the aircraft landed. The aircraft
damage was minimal and confined to the wingtip. The repair estimate showed that the strobe
light, strobe light lens, static wick, and position light needed to be replaced.

When a mishap results in a serious injury or damage estimated in excess of $10,000,
NPR 8621.1B requires mandatory drug testing.5 Upon discovering the damage, the deployed

3
    A Phase II Lightning Warning is issued when lightning is imminent or occurring within 5 miles of the
    airfield. All lightning-sensitive operations cease until the warning is lifted.
4
    According to the KSC Fire and Rescue Incident Report, there was no fire. Comments in the report
    speculate that the sparks observed may have been the reflection of the landing lights in the standing
    rainwater on the runway.
5
    NPR 8621.1B addresses drug testing, but not alcohol testing, after a mishap.
                                                                                                  4



JSC maintenance personnel contacted the JSC Operations Duty Officer at Ellington Field,
who then notified the JSC Chief of Aviation Safety, who in turn notified the aircrew of the
damage to the aircraft. JSC Aircraft Operations Division personnel required the aircrew
members to submit urine samples before the exact dollar amount of the damage was
determined. All urine samples were submitted for testing within approximately 8 hours after
the mishap, which was approximately 5 hours after discovery of the damage. NPR 3792.1B,
“Plan for a Drug-Free Workplace,” July 29, 2006, states that once the criteria in NPR 8621.1B
has been met, and appropriate approvals have been obtained, “a test should be scheduled as
expeditiously as possible.” All samples tested negative for the presence of prohibited drugs.

No alcohol test was conducted because NPR 8621.1B does not address testing for alcohol.
The NASA Chief of Safety and Mission Assurance made a recommendation to address the
issue of alcohol testing in his report, “Space Flight Safety Review (Alcohol Use In The
Preflight Period),” August 27, 2007. The OIG is planning to begin an audit in 2008 that will
assess the Agency’s action in response to the recommendations made in that report as well as
other reports that addressed the use of alcohol by NASA astronauts and pilots.

Allegation 2. The instructor pilot, because of his age and history of aircraft mishaps, is no
longer capable of flying NASA aircraft safely.

We found that the instructor pilot was in compliance with NASA requirements to fly and
that his mishap “history,” as documented by JSC, consisted of only two other mishaps:
one in 1988 and one in 1991.

NASA does not have a specific age limit for pilots. Instead, NPR 7900.3B, “Aircraft
Operations Management,” June 14, 2007, states that pilots 55 years of age and older shall be
medically qualified every 6 months. The instructor pilot, who was over 55, had completed his
last flight physical in July 2007. That flight physical deemed him medically qualified for
flight operations.

NPR 7900.3B also requires annual flight proficiency evaluations to ensure the safe operations
of NASA aircraft. The instructor pilot was up to date on all flight evaluations. A note
included on the “Certificate of Aircrew Qualification” following his annual proficiency check
flight on April 24, 2007, stated, “Excellent flight with very strong emphasis on using good
CRM [Crew Resource Management] techniques.” In April 2007, the instructor pilot also
underwent a Pilot Evaluation Board review, which reapproved him for duty as a NASA
instructor in the Shuttle Training Aircraft, a T-38 instructor pilot, and a Gulfstream III Pilot-in-
Command.

In response to the allegation of prior mishaps, the JSC Chief of Aircraft Operations, provided
documentation that showed the instructor pilot had only two prior mishaps, which had
occurred more than a decade ago:

    •   In 1991, while the instructor pilot was taxiing a Shuttle Training Aircraft after landing
        at night at El Paso International Airport, Texas, the aircraft wingtip impacted a metal
        modular hangar for light aircraft. The primary cause was determined to be failure of
                                                                                                   5



        the aircraft commander (the instructor pilot) to ensure clearance from the obstacle.
        The incident investigation noted significant contributing factors, such as lack of
        lighting on the hangar and nearby ramp, bright lights from opposite-direction traffic,
        crew coordination, distraction, and complacency. A secondary cause was attributed to
        the El Paso tower for failure to positively control movement of the taxiing aircraft.

    •   In 1988, the instructor pilot landed a T-38 at Ellington Field prior to extending the
        landing gear following a post-maintenance Functional Check Flight. The cause of the
        mishap was determined to be the failure of the pilot to lower the landing gear prior to
        landing. Contributing causes included the interruption of the pilot’s normal habit
        pattern due to weather in the area and the absence of a rear-seat crewman or ground
        observer to warn the pilot that the landing gear was not down.

Both investigations categorized the mishaps as causing minor damage. Neither mishap
investigation made any recommendation, disciplinary or procedural, specific to the instructor
pilot. We verified this information with the JSC Chief of Aviation Safety who also added that
the instructor pilot had no past Federal Aviation Administration violations.

Allegation 3. The mishap investigation board selected to review this mishap was not formed
in compliance with NASA regulations and may not be sufficiently independent.

We found that the mishap investigation board was not formed in strict compliance with
NASA regulations. However, an investigation by a mishap investigation board is not
required when the damage sustained as a result of the mishap is valued at less than $250,000.
NPR 8621.1B establishes the investigation appointing authority and identifies the type of
investigation required based on the severity of the incident and value of property damage. The
total property damage to the Shuttle Training Aircraft was less than $2,000 and, therefore,
classified as a “Type D mishap.” Type D mishaps, which include mishaps involving property
damage of more than $1,000 but less than $25,000, do not require formation of a mishap
investigation board; however, the Center Director has the authority to establish a board if he or
she believes the mishap is a high-visibility event. The JSC Chief of Aircraft Operations and
the JSC Chief of Aviation Safety recommended that a mishap investigation board investigate
the mishap because of its potential to have been more serious. On November 13, 2007, the
JSC Director established the mishap investigation board, approved the members, and
requested a final report on the mishap by February 7, 2008.

NPR 8621.1B requires that the chairperson for all mishap investigation boards be independent
of the program or facility that experienced the mishap or close call and that board members
shall not be from the direct chain of authority responsible for day-to-day or line management
oversight of the facility, area, or activity involved in the mishap or have a vested interest in the
outcome of the investigation. Although the other members of the mishap investigation board
meet the requirements of the NPR, the chairperson appointed for this board was an employee
of the JSC Aircraft Operations Division, the same organization employing the instructor pilot.
In addition, the chairperson had conducted flight evaluations for the instructor pilot less than a
year before the mishap. Consequently, the chairperson of the mishap investigation board
                                                                                             6



could be viewed as having organizational and individual impairments that may inhibit an
independent investigation.

Recommendation, Management’s Response, and Evaluation of
 Management’s Response
We recommended that the Johnson Space Center Director appoint a new mishap
investigation board chairperson in compliance with NPR 8621.1B.

   Management’s Response. The JSC Director nonconcurred, stating that the board
   was nearing completion of its assessment and redirection of the board would delay
   the report and add risk to flight operations.

   Additionally, the Director stated that, based on the recommendation of NASA’s Chief
   of Safety and Mission Assurance, he supplemented the board membership by adding
   the NASA Safety Center’s Technical Expert for Aviation and Operations to ensure
   the board’s independence. In addition, the Director stated that the findings and
   recommendations of the board’s report will be vetted through the normal
   endorsement process.

   Evaluation of Management’s Response. Management’s action is responsive. Our
   recommendation was to ensure that the mishap investigation board was sufficiently
   independent. Although not in strict compliance with NPR 8621.1B, the Director’s
   actions provide for oversight of the board’s independence during the mishap
   investigation and reporting process. In addition, we agree that delaying the board’s
   report is not in the Agency’s best interest. We consider the recommendation resolved
   and closed.

We appreciate the courtesies extended during our audit. If you have any questions, or need
additional information, please contact Mr. Raymond Tolomeo, Science and Aeronautics
Research Director, at 202-358-7227.


   signed
Evelyn R. Klemstine

2 Enclosures

cc:
Chief, Safety and Mission Assurance
Chief Engineer
                                Scope and Methodology
We conducted this review from November 2007 through January 2008 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the review to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our objectives. The objective of our review was to
determine whether the allegations contained in a hotline complaint concerning a Shuttle
Training Aircraft mishap on October 19, 2007, could be substantiated. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions.

For this review, we

    •   interviewed JSC and contract maintenance personnel and aircrew involved in the
        mishap, safety officials, JSC Aircraft Operations Directorate officials, and KSC
        aircraft operations and fire and rescue officials;

    •   reviewed applicable regulations including NPR 8621.1B, “Mishap and Close Call
        Reporting, Investigating, and Recordkeeping,” May 23, 2006; NPR 7900.3B,
        “Aircraft Operations Management,” June 14, 2007; and NPR 3792.1B, “Plan for a
        Drug-Free Workplace,” July 29, 2006;

    •   obtained and reviewed documentation outlining the events leading up to and
        subsequent to the mishap to include the Shuttle Training Aircraft Flight Schedule,
        the Shuttle Landing Facility Aircraft Operations Log, the KSC Daily Record of
        Facility Operations, KSC Fire Rescue Incident Report, and the Replacement and
        Labor Cost Estimate for the Shuttle Training Aircraft;

    •   obtained and reviewed the JSC Director Memorandum, “NASA 944 Tree Strike
        During Landing Approach, October 19, 2007,” dated November 13, 2007,
        appointing and approving the membership of the mishap investigation board; and

    •   obtained and reviewed the personnel files for the instructor pilot in charge of the
        aircraft to include the Individual Currency Report, which contains both medical
        and flight currency information, and the Certificate of Aircrew Qualification,
        which shows the qualifications granted to the instructor pilot in each model
        aircraft.

Computer-Processed Data. We did not use computer-processed data to perform this
audit.

Prior Coverage. There was no prior coverage of this incident.




                                                                                   Enclosure 1
                                                                                   Page 1 of 1
Management’s Comments




                        Enclosure 2
                        Page 1 of 2
Enclosure 2
Page 2 of 2
